No. 20-794
In the

Supreme Court of the United States
SERVOTRONICS, INC.,
Petitioner,
v.
ROLLS-ROYCE PLC, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Seventh Circuit

BRIEF OF THE GENERAL AVIATION
MANUFACTURERS ASSOCIATION, INC.
AND THE AEROSPACE INDUSTRIES
ASSOCIATION AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS
Lauren L. Haertlein
Counsel of Record
General Aviation Manufacturers
A ssociation, Inc.
1400 K Street NW, Suite 801
Washington, DC 20005
(202) 393-1500
lhaertlein@gama.aero
Counsel for Amici Curiae
305413

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE  . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The misapplication of § 1782(a) to private
international arbitration undermines
the pr ivacy and con f identia l ity
advantages that are particularly valuable
in aviation and aerospace disputes . . . . . . . . . . . . 3

II. Section 1782(a) would undermine the
predictability and efficiency of private
i nt er n at ion a l a rbit r at ion e s sent i a l
t o h i gh ly i nt e r n at ion a l i ndu st r ie s
like aviation and aerospace . . . . . . . . . . . . . . . . . . 6
III. Strong aviation and aerospace industries
are vital to the United States economy and
transportation infrastructure . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Allied–Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Nat’l Broad. Co. v. Bear Stearns & Co.,
165 F.3d 184 (2d Cir. 1999) . . . . . . . . . . . . . . . . . . . . . . 5
Republic of Kazakhstan v. Biedermann Int’l,
168 F.3d 880 (5th Cir. 1999) . . . . . . . . . . . . . . . . . . . . . 8
Servotronics v. Boeing Co.,
954 F.3d 209 (4th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . 8
Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020), cert. granted,
141 S. Ct. 1684 (2021) . . . . . . . . . . . . . . . . . . . . . . . . 5, 8
Statutes and Other Authories
28 U.S.C. § 1782(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
22 C.F.R. § 121.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
H.R. Rep. No. 97–542 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

iii
Cited Authorities
Page
2020 Facts & Figures: U.S. Aerospace & Defense,
AIA (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
Caroline Simson, Why Aerospace
C o s . Ar e Fo r g o i n g C o u r t s Fo r In t ’ l
Arbitration, Law360 (Nov. 9, 2019) . . . . . . . . . . . . . 4, 6
FAA, Air Traffic by the Numbers, available
at https://www.faa.gov/air_traffic/by _the_
numbers/ (last visited June 21, 2021) . . . . . . . . . . 9, 10
FAA, General Aviation Airports: A National Asset
(May 2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Gary B. Born, I n t ernat iona l C omm erci a l
	A rbitration (2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Nat’l Agricultural Aviation Ass’n, Industry
F a c t s , h t t p s : / / w w w. a g a v i a t i o n . o r g /
industryfacts (last visited June 24, 2021) . . . . . . . . .10
P r i c e w a t e rho u s e C o op e r s , C o n t r i b u t i o n
of Gen er al Av i atio n t o th e US
Economy in 2018 (Feb. 19, 2020)  . . . . . . . . . . . . . . 6, 9
The Wide Wings and Rotors of General Aviation:
The Industry’s Economic and Community
Impact on the United States (2015)  . . . . . . . . . . . . . 10

1
INTERESTS OF AMICI CURIAE1
The General Aviation Manufacturers Association
(GAMA) is a not-for-profit international trade association
representing over one hundred manufacturers of general
aviation aircraft, engines, avionics, and components.
GAMA’s members also are engaged in flight operations,
maintenance, and training services. For over fifty years,
GAMA’s mission has been to foster and advance the
welfare, safety, interests, and activities of general aviation
and general aviation manufacturers in the United States
and abroad. General aviation encompasses all civilian
flying except scheduled commercial transport. Examples
of general aviation include flight training, business travel,
aerial firefighting, crop dusting, pipeline patrol, air
ambulance services, and search and rescue.
The Aerospace Industries Association of America, Inc.
(AIA) is a not-for-profit trade association representing the
interests of the aerospace and defense industry in the
United States. Founded in 1913, AIA represents more
than 300 of the nation’s major aerospace and defense
manufacturers and suppliers, producers of products
ranging from commercial aircraft, engines, and avionics,
to manned and unmanned defense systems and space
and satellite communication systems. AIA’s united
membership improves the safety of air transportation
to make America more secure, fuel exploration, drive
innovation, and ensure a vibrant industrial base.
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amici curiae, their members, or their counsel
made a monetary contribution to its preparation or submission. The
parties have consented to the filing of this brief.

2
Together, GAMA and AIA represent most of the
leading aviation and aerospace manufacturers worldwide. 2
This case will impact whether private, contract-based
international arbitration will remain an effective dispute
resolution choice for aviation and aerospace. Accordingly,
GAMA, AIA, and their members have a substantial
interest in the outcome of this case and are uniquely
positioned to discuss the practical impacts on aviation and
aerospace manufacturers and maintainers. Amici provide
an important perspective for this Court’s consideration
as it addresses the application of 28 U.S.C. § 1782(a) to
private, contract-based arbitration seated outside of the
United States.
SUMMARY OF ARGUMENT
In technology-driven, uncompromising industries
like aviation and aerospace, commercial disputes are
inevitable. As exemplified by this case, for aviation and
aerospace business partners in different countries,
private, contract-based arbitration outside of the
United States is a popular choice for dispute resolution.
Private international arbitration offers several benefits
uniquely applicable to disputes between aviation and
aerospace companies. Because of the nature of aviation
and aerospace and their products, these disputes often
involve proprietary and sensitive information. The privacy
and confidentiality of private international arbitration,
including circumscribed discovery and limited document
2. Boeing Business Jets and Boeing Global Services
(business units of The Boeing Company) and Rolls-Royce are
GAMA member companies. Rolls-Royce and The Boeing Company
are also AIA members.

3
production, provide important protections for this
information. Aviation and aerospace are also very—and
increasingly—international industries. In cross-border
contracts like those common in aviation and aerospace,
the ability to pre-select a convenient and neutral location
and the rules and procedures for dispute resolution offers
much-needed predictability and efficiencies. Applying 28
U.S.C. § 1782(a) to private, contract-based international
arbitration would fundamentally conflict with parties’
contractual choices to bargain for these important benefits.
ARGUMENT
I.

The misapplication of § 1782(a) to private
international arbitration undermines the privacy
and confidentiality advantages that are particularly
valuable in aviation and aerospace disputes.

One of the primary incentives for parties to contract
for private international arbitration is to avoid litigationlike discovery. Private international arbitration generally
provides greater privacy and confidentiality protections
compared to United States-style court litigation. This can
be particularly advantageous in aviation and aerospace
business disputes, which frequently involve valuable
proprietary and sensitive information.
Disputes in aviation and aerospace often involve the
design, development, manufacture, and use of complex
technologies. Given the nature of aviation and aerospace
products, these disputes regularly implicate sensitive
commercial information as well as national security
considerations. As industries premised on innovation,
intellectual property protections are paramount concerns

4
for aviation and aerospace companies. Additionally,
aviation, aerospace, and associated technologies are
heavily regulated, and disputes may involve controlled
or classified information. See, e.g., Caroline Simson, Why
Aerospace Cos. Are Forgoing Courts For Int’l Arbitration,
Law 360 (Nov. 9, 2019) [hereinafter Simson] (“In the U.S.,
a very high percentage of information that’s involved
in large aerospace industry disputes is controlled by
the government.”). For example, “Aircraft and Related
Articles” is a category of defense articles under the
International Traffic in Arms Regulations (ITAR), 22
C.F.R. § 121.1 (The United States Munitions List), and
virtually all space-related technologies fall under ITAR.
These commercial and security considerations make
the confidential and less intrusive nature of private
international arbitration particularly attractive to aviation
and aerospace companies. The contractual decision to
forgo litigation, and accept limited discovery and document
production, provides aviation and aerospace parties with
less risk of inadvertent disclosure of proprietary or
sensitive information unrelated to the dispute. It limits
the ability of parties to conduct “fishing expeditions” for
competitors’ commercial information. It also protects
business reputations and relationships by generally
keeping the parties, processes, arguments, and outcomes
out of the public record. This can be especially valuable to
aviation and aerospace companies given the high-profile
nature of these industries.
The misapplication of § 1782(a) to private international
arbitration would shoehorn public court filings into
disputes previously and purposefully kept private and
confidential. It would specifically circumvent the discovery

5
restrictions that parties bargained for in contracting to
privately arbitrate outside of the United States. See, e.g.,
Nat’l Broad. Co. v. Bear Stearns & Co., 165 F.3d 184, 191
(2d Cir. 1999) (“If the parties to a private international
arbitration make no provision for some degree of
consensual discovery inter se in their agreement to
arbitrate, the arbitrators control discovery, and neither
party is deprived of its bargained-for efficient process
by the other party’s tactical use of discovery devices.”).
Indeed, as the Seventh Circuit correctly noted, if § 1782(a)
applied, “litigants in foreign arbitrations would have
access to much more expansive discovery than litigants in
domestic arbitrations.” Servotronics, Inc. v. Rolls-Royce
PLC, 975 F.3d 689, 695 (7th Cir. 2020), cert. granted, 141
S. Ct. 1684 (2021). Further, it would unbalance arbitration
by making entities with a presence in the United States
uniquely vulnerable to discovery that arbitrators would
have little power to control; amici are not aware of any
other countries with legislation like § 1782(a) that would
enable similar discovery against entities outside of the
United States. Accordingly, § 1782(a) would effectively
negate the privacy and confidentiality benefits of private
international arbitration for which many aviation and
aerospace companies select it. See, e.g., Nat’l Broad. Co.,
165 F.3d at 191 (“Opening the door to the type of discovery
sought . . . in this case likely would undermine one of the
significant advantages of arbitration, and thus arguably
conflict with the strong federal policy favoring arbitration
as an alternative means of dispute resolution.”).

6
II. Section 1782(a) would undermine the predictability
and efficiency of private international arbitration
essential to highly international industries like
aviation and aerospace.
Disputes in aviation and aerospace often involve
parties with different nationalities. Aviation and aerospace
are highly—and ever more—international industries. See,
e.g., Simson (“Once a largely U.S.-century industry with
a relatively small pool of key players, the aerospace and
defense sector has become increasingly international as it
has matured over the last 10 to 20 years . . .”). Aviation and
aerospace companies in the United States are increasingly
working with international counterparts and customers.
“In addition to the manufacture of new aircraft, US
manufacturers also produce a variety of parts and
components for use in the manufacture, repair, and upkeep
of . . . aircraft around the world.” PricewaterhouseCoopers,
Contribution of General Aviation to the US Economy in
2018 (Feb. 19, 2020), at 4 [hereinafter Contribution of GA].
Overall, the United States civil aircraft manufacturing
industry is a net exporter. “U.S. civil aerospace exports in
2019 were valued at $126.5 billion.” 2020 Facts & Figures:
U.S. Aerospace & Defense, AIA (2020), at 6 [hereinafter
2020 Facts & Figures]. Top destinations included France,
the United Kingdom, Germany, China, Canada, Japan,
Brazil, Singapore, United Arab Emirates, and Mexico.
Id. at 7.
Further, flying—by design—is a uniquely interstate
and international act, transcending jurisdictional
boundaries. Aviation and aerospace disputes can involve
events occurring all over the world. The very nature of
aviation and aerospace businesses, therefore, creates

7
enormous unpredictability about where, and how, disputes
may be resolved.
By contracting to privately arbitrate, aviation
and aerospace parties can avoid the uncertainty of
being subject to litigation in various jurisdictions with
potentially unfamiliar laws. International aviation and
aerospace business partners are able to select a single,
convenient, and neutral location, with known rules and
procedures tailored to their needs. See also Gary B.
Born, International Commercial A rbitration (2021), at
1 (“The preference which businesses have demonstrated
for arbitration, as a means for resolving their international
disputes, has become even more pronounced in the past
several decades, as international trade and investment
have burgeoned.”). This provides parties not only
with predictability, but also efficiencies. Compared to
litigation, arbitration is generally more expeditious and
cost-effective. See, e.g., Allied–Bruce Terminix Cos. v.
Dobson, 513 U.S. 265, 280 (1995) (citing H.R. Rep. No.
97–542 (1982) (“The advantages of arbitration are many:
it is usually cheaper and faster than litigation; it can have
simpler procedural and evidentiary rules; it normally
minimizes hostility and is less disruptive of ongoing and
future business dealings among the parties; it is often
more flexible in regard to scheduling of times and places
of hearings and discovery devices …”)).
If § 1782(a) were misapplied to private international
arbitrations, aviation and aerospace companies could
be subjected to the very thing they contracted to avoid:
unpredictable, and inefficient collateral litigation across
the United States. This Court has cautioned that § 1782(a)
“authorizes, but does not require, a federal district court

8
to provide judicial assistance to foreign or international
tribunals.” Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241, 247 (2004). Significantly, however, the
discretion afforded to the district courts under § 1782(a)
does not redress the conflict § 1782(a) creates with parties’
intent to avoid litigation through a purely contract-based
mechanism. Even though a district court may ultimately
reject or constrain § 1782(a) requests, the opposing party
still has to litigate. “Discovery and discovery-related
judicial proceedings take time, they are expensive, and
cost and delay, or threats of cost and delay, can themselves
force parties to settle underlying disputes.” Id. at 268 (J.
Breyer, dissenting).
Further, because § 1782(a) permits applicants to file
in any district court where witnesses or documents are
located, an aviation or aerospace company could face
simultaneous litigation in several districts around the
United States. This case demonstrates that this is not a
hypothetical concern. See Servotronics, 975 F.3d at 689
(holding that § 1782(a) does not authorize a district court
to provide discovery assistance in private international
arbitrations); Servotronics v. Boeing Co., 954 F.3d 209 (4th
Cir. 2020) (reversing and remanding the district court’s
denial of Servotronics’s § 1782 application). The striking
difference in the outcomes of two § 1782(a) applications
involving the same parties and the same facts is a stark
illustration of how ancillary litigation undermines the
predictability and efficiency of private international
arbitration—the very benef its that international
industries like aviation and aerospace negotiate and
contract to receive. See, e.g., Republic of Kazakhstan
v. Biedermann Int’l, 168 F.3d 880, 883 (5th Cir. 1999)
(“Arbitration is intended as a speedy, economical, and

9
effective means of dispute resolution. The course of the
litigation before us suggests that arbitration’s principal
advantages may be destroyed if the parties succumb to
fighting over burdensome discovery requests far from the
place of arbitration.”).
III. Strong aviation and aerospace industries are vital
to the United States economy and transportation
infrastructure.
In the United States in 2018, general aviation alone
supported $247 billion in economic output, $128 billion
of GDP, and 1.2 million jobs. Contribution of GA at 11.
In 2019, total aerospace and defense industry sales
contributed $396 billion to the United States GDP and
aerospace and defense workers represented 1.4% of the
American workforce. 2020 Facts & Figures at 2, 5. And,
as discussed above, aviation and aerospace play important
roles in international trade.
Healthy aviation and aerospace industries are not
only crucial to the United States economy, but also
the transportation infrastructure. 2.9 million airline
passengers fly in and out of United States airports every
day. FAA, Air Traffic by the Numbers, available at
https://www.faa.gov/air_traffic/by_the_numbers/ (last
visited June 21, 2021). In locations that are not support
by primary commercial service airports, general aviation
aircraft connect communities, people, and businesses,
and provide specialized services. FAA, General Aviation
Airports: A National Asset (May 2012), at 2, available
at https://w w w.faa.gov/airports/planning _capacity/
ga_study/ media/2012AssetReport.pdf. In some remote
parts of the country like Alaska—where “82 percent of

10
the state’s communities are not connected to a highway
or road system”—general aviation is a lifeline, providing
the only means of transportation and critical access to
products, supplies, emergency and health-care services.
The Wide Wings and Rotors of General Aviation: The
Industry’s Economic and Community Impact on the
United States (2015), at 5.
Each year, aviation moves 44.5 billion pounds of
freight. Air Traffic by the Numbers. Aircraft also are used
in environmental aerial survey work; law enforcement;
transport of medical patients, organs, blood, and supplies;
aerial firefighting; search and rescue; humanitarian relief
and charity flights; and treating approximately 127 million
acres of crops annually. Nat’l Agricultural Aviation Ass’n,
Industry Facts, https://www.agaviation.org/industryfacts
(last visited June 24, 2021).
The breadth and reach of aviation and aerospace
exemplify the vital role these segments play in the United
States economy and transportation infrastructure, and
the critical importance of the health of these businesses.

11
CONCLUSION
For the foregoing reasons, and those set forth in
Respondents’ briefs, amici respectfully submit that if this
Court reaches the merits, it should affirm the judgment
of the Seventh Circuit.
Respectfully submitted,
Lauren L. Haertlein
Counsel of Record
General Aviation Manufacturers
A ssociation, Inc.
1400 K Street NW, Suite 801
Washington, DC 20005
(202) 393-1500
lhaertlein@gama.aero
Counsel for Amici Curiae
June 28, 2021

